XIII. ATTACHMENTS

1. District Court Judgment
2. Circuit Court Judgment
3. Circuit Court Mandate

Page 14 of 14

•>
1 YJ

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 18 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TALMADGE ADIB TALIB,
Plaintiff-Appellant,
v.
JUAN GUERRERO, Deputy No. 520679, in
his individual capacity; et al.,

No.

20-55015

D.C. No.
2:15-cv-03825-JAK-DFM
Central District of California,
Los Angeles
ORDER

Defendants-Appellees,
and
JOHN DOE LUNA, Deputy No. Unknown,
in his individual capacity, et al.,
Defendants,

ROLAND LEROY REESE-BEY,
Plaintiff-Appellant,
v.

No.

20-55018

D.C. No.
2:15-cv-03833-JAK-DFM
Central District of California,
Los Angeles

JUAN GUERRERO, Deputy No. 520679, in
his individual capacity; et al.,
Defendants-Appellees.
Before: CLIFTON, IKUTA, and LEE, Circuit Judges.
A review of the records, the opening briefs, appellees’ motions for summary
affirmance of the district court’s December 20, 2019 judgment, and the oppositions
SZ/MOATT

and replies thereto indicates that the questions raised in this appeal are so
insubstantial as not to require further proceedings. See 9th Cir. R. 3-6(a) (stating
standard for summary disposition); see also United States v. Hooton, 693 F.2d 857,
858 (9th Cir. 1982) (stating standard).
Accordingly, we grant the motions for summary affirmance (Docket Entry
No. 8 in 20-55015; Docket Entry No. 8 in 20-55018).
AFFIRMED.

SZ/MOATT

2

20-55015

J*

' J

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 10 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TALMADGE ADIB TALIB,
Plaintiff - Appellant,
v.

JUAN GUERRERO, Deputy No.
520679, in his individual capacity; et
al.,

No. 20-55015
D.C. No. 2:15-cv-03825-JAK-DFM
U.S. District Court for Central
California, Los Angeles
MANDATE

Defendants - Appellees,
COUNTY OF LOS ANGELES,
Defendant - Appellee,
and
JOHN DOE LUNA, Deputy No.
Unknown, in his individual capacity,
Defendant,
JANE DOE WALLACE, Deputy No.
Unknown, in her individual capacity; et
al.,
Defendants.

The judgment of this Court, entered November 18, 2020, takes effect this
date.

. ->•
♦ ./

This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Craig Westbrooke
Deputy Clerk
Ninth Circuit Rule 27-7

A
Case 2.15-CV-03825-JAK-DFM Document 103

Filed 12/20/19 Page 1 of 1 Page ID #:1744

JS-6

nS'

&

united states district court
O

CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

O
O

TALMADGE ADIB TALIB,
O
Plaintiff,

is

Case No. CV 15-03825-JAK (DFM)
JUDGMENT

V.

JUAN GUERRERO et al.,
Defendants.
«vw

R

£

Pursuant to the Court’s Order Accepting the Report and
Recommendation of United States Magistrate Judge, IT IS ADJUDGED that
this action is dismissed with prejudice.

Date: December 20,2019

K—
JOHN A. KRONSTADT
United States District Judge

Case 2:15-cv-03825-JAK-DFM Document 102 Filed 12/20/19 Page 1 of 1 Page ID #:1743

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

TALMADGE ADIB TALIB,
Plaintiff,
v.

Case No. CV 15-03825-JAK (DFM)
Order Accepting Report and
Recommendation of United States
Magistrate Judge

JUAN GUERRERO et al.,
Defendants.
Under 28 U.S.C. § 636, the Court has reviewed the pleadings and all the
records and files herein, along with the Report and Recommendation of the
assigned United States Magistrate Judge. The Court has engaged in a de novo
review where objections have been made. The Court accepts the findings,
conclusions, and recommendations of the United States Magistrate Judge.
IT IS THEREFORE ORDERED that:
1.

The Magistrate Judge’s Report and Recommendation is approved

and accepted.
2.

Defendants’ motion for summary judgment is GRANTED.

3.

Judgment shall be entered dismissing this case with prejudice.

Date: December 20, 2019
JOHN A. KRONSTADT
United States District Judge

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 1 of 31 PagelD#:1683

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

TALMADGE ADIB TALIB,
Plaintiff,

Case No. CV 15-03825-JAK (DFM)
Report and Recommendation of
United States Magistrate Judge

v.

JUAN GUERRERO et al.
Defendants.
ROLAND LEROY REESE-BEY,
Plaintiff,

Case No. CV 15-03833-JAK (DFM)
Report and Recommendation of
United States Magistrate Judge

v.

JUAN GUERRERO et al.,
Defendants.
romanAh HOLMES-BEY,

Plaintiff,
y.

JUAN GUERRERO et al.,
Defendants.

Case No. CV 15-04822-JAK (DFM)
Report and Recommendation of
United States Magistrate Judge

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 2 of 31 Page ID #:1684

This consolidated Report and Recommendation is submitted to the
Honorable John A. Kronstadt, United States District Judge, under 28 U.S.C.
§ 636 and General Order 05-07 of the United States District Court for the
Central District of California.
I.
A,

INTRODUCTION

Procedural History
These three matters arise out of the same incident. Plaintiffs Talmadge

Adib Talib (“Talib”), Roland Leroy Reese-Bey (“Reese”), and Romanah
Holmes-Bey (“Holmes”) (collectively, “Plaintiffs”) each filed separate but
substantially similar civil rights lawsuits against deputies employed by the Los
Angeles County Sheriff’s Department (“LASD”).1 In each case, the operative
complaint is the third amended complaint. See Case No. CV 15-3825, Dkt. 18
(“Talib TAC”); Case No. CV 15-3833, Dkt. 21 (“Reese TAC”); Case No. CV
15-4822, Dkt. 19 (“Holmes TAC”) (collectively, “TACs”). After considerable
motion practice, twelve defendants remain. All are employees of LASD:
Deputies Juan Guerrero, Stephen Park, Lawrence Swanson, Rodney
Anderson, Salvador Romero, Jeremiah Hooper, Kelly Marchello, Orbe, and
Jason Will; Sergeants Alex Gilinets and James North; and Detective Richard
Kiguelman.2 The remaining claim in the TACs allege that during a 2013 traffic
stop, Defendants effected an unreasonable search and seizure and retaliated
against Plaintiffs in violation of their First and Fourth Amendment rights. See
TACs at 26-27.
Defendants Guerrero, Park, Swanson, Anderson, Romero, Hooper,
1 The Court dismissed for lack of prosecution a case filed by a fourth
plaintiff who alleged claims arising out of the same incident. See Daniel A.
Davis v. Juan Guerrero et al.. No. CV 15-3829 (C.D. Cal. filed May 20, 2015),
Dkts. 37-39.
2 Plaintiffs have not provided Orbe’s first name.
2

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 3 of 31 Page ID #.1685

Marchello, Will, Gilinets, and Kiguelman (collectively, “moving defendants”)
now move for summary judgment.3 See Case No. 15-3825, Dkt. 85 (“Talib
MSJ”); Case No. 15-3833, Dkt. 90 (“Reese MSJ”); Case No. 15-4822, Dkt. 81
(“Holmes MSJ”) (collectively, “MSJs”). Plaintiffs opposed the motions, see
Case No. 15-3825, Dkt. 89; Case No. 15-3833, Dkt. 94; Case No. 15-4822,
Dkt. 87 (collectively, “Opposition”), and the moving defendants replied, see
Case No. 15-3825, Dkt. 97 (“Talib Reply”); Case No. 15-3833, Dkt. 102
(“Reese Reply”); Case No. 15-4822, Dkt. 93 (“Holmes Reply”).
B,

Facts
The following facts are uncontroverted, except where otherwise

indicated.
1.

Initial Traffic Stop

On July 10, 2013, Plaintiffs attended a meeting in Inglewood. See TACs
at 28. Reese and his wife, Holmes, agreed to give Talib and their friend Daniel
Davis a ride home. See id The four traveled in a tan Chevrolet S-10 pickup
truck. See Case No. 15-3825, Dkt. 87; Case No. 15-3833, Dkt. 92; Case No.
15-4822, Dkt. 83 (collectively, Statement of Uncontroverted Material Facts or
“SUF”) Tfl[ 4, 9. Reese drove the truck, Holmes and Davis rode in the front
passenger compartment, and Talib rode unrestrained in a camper shell in the
truck bed. See id.

4-5. 9.

Guerrero and Park were on patrol in a marked LASD car. See SUF
4. At some point between 11:05 pm and 11:30 pm, Guerrero and Park saw a
3 Neither Orbe nor North has been served in any of these actions.
Swanson has not been served in the Holmes action, Case No. 15-4822.
Because the Court recommends granting Defendants’ Motion for Summary
judgment as to the cases filed by Talib and Reese, the Court recommends
dismissing their claims against Orbe and North with prejudice. Holmes has
been separately ordered to show cause why her claims against Orbe, North,
and Swanson should not be dismissed for failure to prosecute. See Dkt. 53.
3

3-

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 4 of 31 Page ID #:1686

pickup truck traveling east on 108th Street towards Normandie Avenue.4 See
id Tf 4. Guerrero and Park saw that a passenger was riding unrestrained in the
rear bed in violation of California Vehicle Code § 23116(a)-(b) and Park
initiated a traffic stop.5 See SUF fflj 5-6. The truck pulled over on the corner of
107th Street and Normandie Avenue, which was less illuminated than the
main street where the stop was initiated. See id fflj 7-8, 13.
Park approached the driver’s side window and ordered Reese to turn off
the engine. See SUF 9. Reese asked why they had been stopped. See Reese
TAC at 29. Park stated that there was someone in the rear bed, which was a
vehicle code violation. See SUF

10.

\

Meanwhile, Guerrero approached the back window of the camper shell.
See SUF ^ 14. According to Talib, Guerrero had his gun drawn and pointed at
his face. See Talib TAC at 28. Guerrero maintains that he placed his hand on
the gun while it was in its holster, and that eventually he removed the gun
from its holster but never pointed it at Talib. See Case No. 15-3825, Dkt. 88;
Case No. 15-3833, Dkt. 93, Case No., 15-4822, Dkt. 84 (collectively,
Defendants’ Compendium of Exhibits or “Compendium”), Declaration of
Juan Guerrero (“Guerrero Decl.”) fflj 4, 6. Guerrero saw Talib moving around
in the rear bed and noticed that Talib was concealing his left hand from

4 Plaintiffs state that this occurred at approximately 11:05 pm, while
Guerrero and Park state that it occurred at around 11:30 pm. See TACs at 28;
SUF U 4.
5 Vehicle Code § 23116 reads, in relevant part:
(a)

No person driving a pickup truck or a flatbed motortruck on a
highway shall transport any person in or on the back of the truck.

(b)

No person shall ride in or on the back of a truck or flatbed
motortruck being driven on a highway.
4

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 5 of 31 PagelD#:1687

Guerrero’s view. See id. If 4. Guerrero ordered Talib to show him his hands,
particularly his left hand. See id

5. Talib froze and did not respond to

Guerrero. See Talib TAC at 28-29. After Guerrero repeatedly asked Talib
whether he understood English, Talib responded, “You have that gun pointed
at my face, you are threaten[ing] my life[]!” Id at 29. Guerrero ordered Talib
to exit the vehicle. See id. Talib refused, telling Guerrero that he lacked
authority and was violating his rights. See id Guerrero repeated his order and
Talib asked what law compelled him to follow his orders. See id.
At this point, Reese expressed concern to Park about Talib’s safety. See
Reese TAC at 29; Holmes TAC at 29. Guerrero informed Park that Talib was
resisting his orders. See Guerrero Decl. f 5. Park used his radio to request
assistance from other units. See SUF 23. Park ordered Reese, Holmes, and
Davis to put their hands on the dashboard and asked them a series of questions
that they refused to answer. See Reese TAC at 29; Holmes TAC at 29.
2,

Arrival of Backup Units

Swanson, Anderson, and Orbe arrived at the scene. See SUF ]f 24. One
officer drew his gun and pointed it at Talib; Anderson does not recall pointing
his weapon at Talib but states that it would have been within policy to do so.
See Talib TAC at 29; Compendium, Declaration of Rodney Anderson ^ 7.
Talib alleges that one of the deputies then grabbed his right arm in an attempt
to remove him from the rear bed; Guerrero states that he grabbed Talib’s arm
before the other deputies arrived. See Talib TAC at 29; Guerrero Decl. ^ 5.
Talib yelled for the officer to stop touching him. See SUF ]f 22. Guerrero and
another officer told Talib that he was being uncooperative and Talib disagreed,
maintaining that he had not committed a crime. See Talib TAC at 30.
Refusing multiple requests to get out of the vehicle, Talib invoked his right to
remain silent and reiterated that the deputies lacked authority and were
violating his rights. See SUF Tf 26.
5

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 6 of 31 PagelD#:1688

Meanwhile, Reese and Davis asked Park why Talib needed to get out of
the vehicle. See Case No. 15-3825, Dkt. 93; Case No. 15-3833, Dkt. 98; Case
No, 15-4822, Dkt. 88 (collectively, “Exh. A”), CAM00523 at 2:36-3:08. Park
stated that caselaw supported the deputies’ actions. See id. at 2:40-3:09; SUF
11. Park asked Reese to step out of the vehicle, and Reese complied. See SUF
TJ12. Park ordered Reese to place his hands behind his back and interlace his
fingers, and Reese asked if Park was going to handcuff him. See id Park said
no, but proceeded to handcuff Reese. See Reese TAC at 30. Reese told Park
that he did not consent to any physical contact. See id. Because there were four
occupants in the truck, the occupants were being uncooperative, and the
location of the traffic stop was a high-crime area in which suspects had
previously shot at deputies, Park conducted a pat-down search for weapons.
See SUF Tf 13. Park escorted Reese to his patrol car. See id. 1f 12.
Will arrived around this time, possibly along with Hooper and Romero.6
See Talib TAC at 30; Compendium, Declaration of Stephen Park (“Park
Deck”)

10; Declaration of Jason Will ]f 4. Park also asked that North respond

to the scene as a supervisor because the occupants of the truck, in particular
Talib, were uncooperative. See Park Deck ]f 10.
Park returned to the truck and ordered Holmes to step out, to which
Holmes replied, “I do not consent.” Holmes TAC at 30. Park explained that
she could be ordered to get out of the vehicle during a traffic stop for officer
safety, and that refusal could result in a misdemeanor for obstruction of an

6 Talib indicates that Hooper and Will arrived together. See Talib TAC
at 30. Defendants do not dispute when Will arrived. Park asserts that Hooper
and Romero arrived at this time, but Hooper and Romero state that they
arrived after Talib had already been pepper-sprayed. See Compendium,
Declaration of Stephen Park If 10; Declaration of Jeremiah Hooper If 4;
Declaration of Salvador Romero 1f 4.
6

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 7 of 31 PagelD#:1689

officer’s duties. See id. Holmes disputed whether Park had “probable cause”
and Park explained, “I pulled you over because you have someone in the back
of the truck.” Id. Park repeated his order to get out of the vehicle and Holmes
said, “[T]his is my private personal vehicle . . . I’m going about my own
way . . . and I do not have any contraband ... or any weapons.” LI Park
reiterated the basis for the stop. See id. Davis and Holmes then told Park that if
he touched them it would be an assault. See id. at 32.
North presumably arrived around this time because Guerrero told Park
that “the Sergeant” wanted to speak with him and Park left. Id at 33. Holmes
told Guerrero, “[W]e would like to remain silent.” Id When Holmes tried to
put a napkin on the dashboard, Guerrero cautioned Holmes not to make any
sudden movements. See id.

3.

North’s Attempts to Remove Talib

At 11:14 pm, North began recording the incident on his camera. See
Compendium, Exhibit 14-1 (“Exh. 14-1”) at 1. North approached the truck
bed and asked for Talib’s name. See id When Talib asserted that no law
compelled him to tell North anything, North explained that Talib was in the
truck bed illegally, that the deputies were going to give him a ticket, and that
Talib needed to exit the truck and sign it. See id Talib stated that he did not
need to exit the vehicle and North explained that he had violated the Vehicle
Code and that they needed to see his hand to ensure officer safety. See id. at 12. Talib stated that a deputy had threatened his life and touched him, and that
“this is already gonna be a complaint.” Id. at 2. North said that if Talib did not
get out he would be pepper sprayed and taken to jail for resisting arrest. See id
Talib said that he would sue them for violating his rights, and complained that
a deputy was pointing his gun at him. See id at 2-3. North and the other
deputies continued to ask Talib to get out of the truck with no success. See id
at 3-4.
7

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 8 of 31 PagelD#:1690

North asked Holmes if she wanted to speak with Talib, warning her that
Talib would get sprayed if he did not get out of the rear bed. See kb at 4. Talib
said to Holmes, “This is unlawful and you know this.” Id at 7. Holmes
agreed. See id Talib asserted that they had the right to get North’s camera
footage and that the deputies could spray him, and Holmes agreed. See id
Talib then said that the deputies could take him to jail and do “everything they
want” and that “we will sue them,” to which Holmes said, “Yes.” Id at 7-8.
Holmes then asked North the deputies’ terms for Talib. See id at 8.
North reiterated that Talib needed to sign the ticket and show them his left
hand for officer safety. See id When Talib complained that deputies had their
guns pointed at him, Holmes asked North whether Talib had the right to
protect himself and said, “It’s threatening.” Id at 8-9. North requested that
Holmes speak with Talib to get him to exit the vehicle and Holmes agreed. See
id at 9-10. The conversation between Holmes and Talib was mostly inaudible,
but ended with Talib saying that the officer who had “started pulling on [him]”
had assaulted him, and expressing his desire for the deputies to “spray [him]”
and “take [him] to jail. . . [a]nd then we’ll go to court.” Id at 10. North then
asked Holmes to stand out of the way to ensure her safety, and Holmes
complied. See id at 11. North and the deputies asked Talib once more to step
out of the vehicle, and he refused. See id
4,

Deployment of Pepper Spray

North directed Guerrero and Park to pepper spray Talib. See
Compendium, Declaration of James North (“North Deck”) Tf 9. Positioned on
opposite sides of Talib, Guerrero and Park each sprayed Talib for up to five
seconds. See SUF ffi[ 36-37. Talib closed his eyes and covered his face with his
right hand. See id.

38; North Decl.

10. North and the deputies made

multiple requests for Talib to show them his left hand and step out of the
vehicle, to no avail. See Compendium, Exhibit 14 (“Exh. 14”) at 8:20-9:11.
8

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 9 of 31 PagelD#:1691

Guerrero and Park pulled Talib’s legs out of the vehicle until he could stand on
his own. See SUF 40. Park and Guerrero each grabbed Talib by an arm and
brought him to a patrol vehicle, where they handcuffed and searched him
incident to his arrest for violation of California Penal Code § 148(a)(1).7 See id
The deputies removed various items from Talib’s person and the inside of his
pockets, including his sunglasses, hat, wallet, cellphone, headphones, and
keys, and looked through his wallet to find his identification. See Exh. 14 at
9:45-10:48, 12:44-50. Deputies sat Talib down on the curb, then placed him in
a patrol car. See SUF Tf 40; Talib TAC at 32.
Deputies told North that they planned to bring Talib to the station for a
violation of California Penal Code § 148 and the Vehicle Code citation, and
that the driver also would be cited. See Exh. 14-1 at 13-14. North then asked
Holmes for her name. See id at 14. Holmes asked why he needed her name,
and North stated that he wanted to interview her about what she had seen. See
id at 15. After affirming that she knew Talib, Holmes asked whether she was
being investigated. See id. North replied that she was being interviewed and
asked whether she had seen Talib sitting in the back of the truck. See id. at 1516. Holmes declined to answer, explaining that she did not know whether her
statements would be held against her. See id. at 16. Although North clarified

7 California Penal Code § 148(a)(1) provides:
Every person who willfully resists, delays, or obstructs any public
officer, peace officer, or an emergency medical technician, as
defined in Division 2.5 (commencing with Section 1797) of the
Health and Safety Code, in the discharge or attempt to discharge
any duty of his or her office or employment, when no other
punishment is prescribed, shall be punished by a fine not
exceeding one thousand dollars ($1,000), or by imprisonment in a
county jail not to exceed one year, or by both that fine and
imprisonment.
9

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 10 of 31 Page ID #:1692

that she was not being arrested, Holmes declined to answer any questions until
she could speak with counsel for fear of “mak[ing] things worse.” hi at 16-17.
North asked Reese for a statement. See hi at 17. Reese acknowledged
that he had been driving when the deputies initiated the stop and that he knew
Talib. See id at 18-19. Eventually, Reese expressed his preference to remain
silent and requested counsel, hi at 20-21. North then questioned Davis, who
refused to respond. See id. at 21-23.
5.

Vehicle Theft Investigation and Arrests

While North interviewed Holmes about the incident, Park approached
the passenger compartment to speak with Davis. See Exh. A, CAM00524 at
8:08. Park said that Reese had told him the registration was “inside there” and
asked Davis to check for the registration and give it to him. See id. at 8:078:13. Davis asserted that neither he nor Park had permission to check for the
registration and asked Park to bring the driver to the truck, which Park
declined to do. See id. at 8:22-40. When Davis said that he did not believe
Reese was consenting to any searches, Park replied that he was only asking for
the registration and proof of insurance. See id. at 8:41-51. Davis ultimately
declined to give any paperwork to Park. See id at 9:20-29.
As North approached Reese for questioning, a deputy indicated that he
was getting Reese’s driver’s license. See Exh. 14-1 at 18. During the
questioning, Reese commented, “[T] hey’re pulling all my paper work,” to
which North replied that the deputies were trying to determine his insurance.
Id. at 19-20. Reese said that “[t]he only thing[s] that’s in that bag that he asked
me for is my license,” not his insurance paperwork, and North indicated that
the deputy was searching for Reese’s license. Id at 20.
Sometime after Talib was sprayed, handcuffed, and placed in the patrol
car, Guerrero asked Reese who owned the truck. See Guerrero Decl. Tf 9.
Reese said that it belonged to the female passenger. See id Guerrero asked
10

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 11 of 31 Page ID #:1693

Holmes her name, but she refused to give any information and stated that the
deputies were violating her civil rights.8 See id

9, 11. Deputies were unable

to retrieve any identification from Holmes’s person. See id

11. Because the

deputies could not confirm that Reese had consent from the registered owner
to drive the vehicle, Reese was arrested for driving a vehicle without the
owners’ consent in violation of Vehicle Code § 10851(a).9 See SUF ^ 47.
The deputies then formed the opinion that Holmes was Reese’s
accomplice in driving the vehicle without the owner’s consent, based on the
following facts: (1) Reese had stated that the truck belonged to the female
passenger and she had refused to confirm who the truck belonged to or give
any information regarding the truck; (2) Holmes had refused to give any
information about her identity and the deputies were unable to retrieve any
identification from her person; and (3) the deputies were unable to determine if
Reese had consent to drive the truck. See Compendium, Exhibit 6 (“Exh. 6”)
8 It is unclear what questions Guerrero asked Holmes. According to
Park’s narrative incident report, Holmes “refused to give Deputy Guerrero an
answer to whom the vehicle belonged” and “refused to . . . give [them] any
information regarding the vehicle.” See Compendium, Exhibit 6 at 5-6.
However, nothing in the record shows that Guerrero actually asked Holmes
who owned the vehicle.
9 According to Park, after Holmes refused to provide her name, the
deputies detained Reese, Talib, Holmes, and Davis while they investigated
whether the vehicle was being driven without the owner’s consent. See
Compendium, Exhibit 6 at 5. Park asked Talib and Davis who owned the
vehicle, and both refused to answer. See id at 5-6. At that point, they arrested
Reese. See id at 6. Although Guerrero mentions that Talib refused to say who
owned the vehicle, he makes no reference to a detention pending an
investigation of driving a vehicle without the owner’s consent. See Guerrero
Decl. U 12. Likewise, the probable cause determination for Reese does not
mention the detention before arrest or that Talib and Davis failed to identify
the owner of the vehicle. See SUF ^ 81.

11

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 12 of 31 PagelD#:1694

at 6. The deputies also arrested Holmes for violation of Vehicle Code
§ 10851(a). See id Guerrero read Holmes her rights. See id She stated that she
did not understand her rights, did not wish to speak with the deputies, and
asked for counsel. See id.
Gilinets arrived to conduct an administrative investigation into the use of
force to remove Talib from the truck. See Compendium, Declaration of Alex
Gilinets

4-7. At approximately 11:58 pm, Gilinets attempted to interview

Holmes about the incident. See Compendium, Exhibit 16.1. Holmes refused to
provide her name, immediately invoking her right to remain silent and
demanding counsel. See id.
Park requested that Marchello respond to the location to conduct a
search of Holmes incident to her arrest. See SUF 53. Defendants assert that
Marchello arrived at the scene after Holmes was already under arrest. See id.
54. Holmes alleges that Marchello arrived “[a] few minutes” after North
attempted to interview her, at which point she consulted with the other
deputies and then “immediately” approached Holmes, grabbed her arm, and
told her she was being arrested. Holmes TAC at 35. Holmes further alleges
that Marchello twisted her arm behind her back while a male officer pulled the
other arm behind her back, that the two deputies handcuffed her so tightly that
her circulation was cut off, and that she yelled, “[YJou’re hurting me.” Ich
Holmes complains that she continues to suffer numbness in her fingers. See icL
Defendants assert that Marchello conducted a lawful search. See
Compendium, Declaration of Kelly Marchello (“Marchello Deck”) 1} 5.
Holmes alleges that Marchello felt “all over [her] genitalia and [her] breasts in
a violently aggressive manner,” that she forcefully attempted to walk her over
to the patrol car, that Park grabbed her when she resisted Marchello’s force,
and that both deputies forced her into the car and ignored her complaints that

12

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 13 of 31 Page ID #:1695

they were violating her rights. Holmes TAC at 35. Marchello was unable to
retrieve any identification from Holmes. See SUF Tf 57.
A portion of Holmes’s search was recorded. See Compendium, Exhibit
25 (“Exh. 25”). It appears that Holmes was already handcuffed at the start of
the video. See id at 0:00. The video shows Marchello performing a patdown
search of Holmes. See id. at 0:00-30. After Holmes yelled that Marchello was
violating her constitutional rights, Park placed one hand on Holmes’s arm and
then placed the other hand on her shoulder to assist Marchello. See id. at 0:0714. Park and Marchello each held one of Holmes’s arms and walked her over
to the patrol car. See id at 0:31-50. As Holmes yelled and resisted entering the
patrol car, both deputies pushed her into a seated position. See jd at 0:59-2:01.
Park then searched the truck. See Holmes TAC at 35.
Talib refused to provide any information as to who owned the vehicle.
See SUF 59. The deputies arrested him as an accomplice with Reese in
driving a vehicle without the owner’s consent, in addition to the California
Penal Code § 148(a)(1) charge. See id ^ 60-61. The deputies also arrested
Davis as an accomplice with Reese in driving a vehicle without the owner’s
consent. See Exh. 6 at 7. Romero and Hooper transported Talib to the South
Los Angeles station, where they provided Talib with water to rinse out his
eyes. See Compendium, Declaration of Jeremiah Hooper 5. Hooper then
assisted Marchello in transporting Holmes to the station. See id

6. Reese and

Davis were also transported to the station. See Exh. 6 at 7.
6.

Aftermath

Kiguelman, the detective assigned to investigate Plaintiffs’ arrest, was
not at the scene of the traffic stop. See SUF

95-96. Holmes was fingerprinted

at the station just after 2:00 am. See id ^ 99. Just after 5:00 am, a fingerprint
analysis identified Holmes as Romaine Jaleen Holmes, aka Romaine Reese,
aka Romaine Reese-Holmes. See id f 100. Because Romaine Reese had been
13

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 14 of 31 Page ID #:1696

identified as the owner of the vehicle, Kiguelman ordered Holmes, Reese, and
Talib released from custody. See id.

101-104. Reese was cited for violation

of Vehicle Code § 23116(a) and Talib was cited for violation of Vehicle Code
§ 23116(b) and Penal Code § 148(a)(1). See id fflj 102, 104. Upon release,
Holmes found that the truck was impounded. See Holmes TAC at 38.
In November 2013, a jury found Talib found guilty of resisting,
obstructing, or delaying a peace officer in the performance of his duties. See
SUFU118.
n.

STANDARD OF REVIEW

Summary judgment shall be granted where the papers “show[] that there
is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A dispute is “genuine”
only if a sufficient evidentiary basis exists upon which a reasonable jury could
find for the nonmoving party. Anderson v. Liberty Lobby. Inc.. 477 U.S. 242,
248-49 (1986). A factual dispute is “material” only if it might affect the
outcome of the suit under governing law. Id at 248.
The moving party bears the initial responsibility of presenting the basis
of its motion and identifying those portions of the record, together with
affidavits, that it believes demonstrate the absence of a genuine issue of
material fact. See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). Once the
moving party meets this burden, the burden shifts to the nonmoving party to
demonstrate the existence of a genuine issue of material fact with specific facts,
not mere conclusory allegations. See Anderson. 477 U.S. at 248-49, 256.
The Court views the inferences drawn from the underlying facts in the
light most favorable to the nonmoving party. See Matsushita Elec. Indus. Co.
v. Zenith Radio Corp.. 475 U.S. 574, 587 (1986). The nonmoving party,
however, “must do more than simply show that there is some metaphysical
doubt as to the material facts.” Id at 586. Summary judgment is appropriate if
14

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 15 of 31 PagelD#:1697

the nonmoving party “fails to make a showing sufficient to establish the
existence of an element essential to that party’s case, and on which that party
will bear the burden of proof at trial.” Celotex. 477 U.S. at 322. “Where the
record taken as a whole could not lead a rational trier of fact to find for the
nonmoving party, there is no genuine issue for trial.” Ricci v. DeStefano. 557
U.S. 557, 586 (2009) (citation omitted).
While pleadings filed by pro se litigants are generally subject to “less
stringent standards than formal pleadings drafted by lawyers,” Erickson v.
Pardus. 551 U.S. 89, 94 (2007) (citation omitted), “pro se litigants are not
entitled to lenient evidentiary standards for purposes of summary judgment,”
Price v. Peerson. No. 13-3390, 2014 WL 12579823, at *4 (C.D. Cal. May 15,
2014) (citing Jacobsen v. Filler. 790 F.2d 1362, 1364 (9th Cir. 1986) (“First and
foremost is that pro se litigants in the ordinary civil case should not be treated
more favorably than parties with attorneys of record.”)). “A district court does
not have a duty to search for evidence that would create a factual dispute.”
Bias v. Movnihan. 508 F.3d 1212, 1219 (9th Cir. 2007). Moreover, “[a] district
court lacks the power to act as a party’s lawyer, even for pro se litigants.” Id.
For purposes of summary judgment, the Court must consider as
evidence Plaintiffs’ verified complaints as well as contentions made in their
oppositions, to the extent Plaintiffs’ contentions are based on personal
knowledge and set forth facts admissible in evidence. See Jones v. Blanas. 393
F.3d 918, 922-23 (9th Cir. 2004); see also Lopez v. Country Ins. & Fin. Servs..
252 F. App’x 142, 144 n.2 (9th Cir. 2007) (where pro se plaintiff signs
pleadings or motions under penalty of peijury, district court must treat the
pleadings and motions as evidence for purposes of summary judgment).

15

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 16 of 31 PagelD#:1698

IDL
A.

DISCUSSION

Fourth Amendment Claims
Plaintiffs allege that Defendants violated their Fourth Amendment rights

by conducting unreasonable searches and seizures of their person, property,
and effects. See TACs at 26-27.
1.

The Traffic Stop

The Fourth Amendment protects people from unreasonable searches and
seizures of “their persons, houses, papers, and effects.” U.S. Const, amend.
IV. A traffic stop constitutes “a ‘seizure’ of the occupants of a vehicle and
therefore must be conducted in accordance with the Fourth Amendment.”
Heien v. North Carolina. 574 U.S. 534, 536 (2014). A traffic stop is an
investigatory stop, which requires only a showing of reasonable suspicion, i.e.,
whether under the totality of the circumstances, the officer has a reasonable
suspicion that a traffic violation occurred. See Whren v. United States. 517
U.S. 806, 810 (1996) (“As a general matter, the decision to stop an automobile
is reasonable where the police have probable cause to believe that a traffic
violation has occurred.”); see also United States v. Lopez-Soto. 205 F.3d 1101,
1104-05 (9th Cir. 2000) (holding that Whren did not change the “settled rule”
that “the Fourth Amendment requires only reasonable suspicion in the context
of investigative traffic stops”). Reasonable suspicion requires specific and
articulable facts which, together with objective and reasonable inferences, form
a basis for suspecting that a violation has occurred. See United States v.
Thomas. 211 F.3d 1186, 1189 (9th Cir. 2000). “A traffic stop for an observed
infraction is reasonable under the Fourth Amendment.” United States v.
Martinez. 403 F. App’x 182, 183 (9th Cir. 2010).
It is undisputed that Guerrero and Park saw Talib sitting unrestrained in
the rear bed while the truck was moving, in violation of Vehicle Code
§ 23116(a)-(b). See SUF

4-5. This violation gave the deputies a reasonable
16

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 17 of 31 Page ID #:1699

suspicion for an investigatory stop. See United States v. Choudrv. 461 F.3d
1097, 1100 (9th Cir. 2006) (“A traffic violation alone is sufficient to establish
reasonable suspicion.”). To the extent that Talib, Reese, or Holmes brings a
Fourth Amendment claim based on the initial traffic stop, any such claim lacks
merit and fails as a matter of law.

2.

Searches and Seizures

A seizure of the person occurs within the meaning of the Fourth
Amendment when police conduct would communicate to a reasonable person
that he was not at liberty to ignore the police presence and go about his
business. See Kaupp v. Texas. 538 U.S. 626, 630 (2003). The Constitution
prohibits only unreasonable seizures; a seizure violates the Fourth Amendment
if it was objectively unreasonable under the circumstances. See Fitch v, City of
Claremont. No. 14-7852, 2015 WL 13357605, at *4 (C.D. Cal. Dec. 8, 2015).
“[A] warrantless arrest by a law officer is reasonable under the Fourth
Amendment where there is probable cause to believe that a criminal offense
has been or is being committed.” Devenpeck v. Alford. 543 U.S. 146, 152
(2004). Probable cause exists where, under the totality of the circumstances
known to the arresting deputies, a prudent person would have concluded that
there was a fair probability that the arrestee had committed a crime. See Peng
v. Mei Chin Penghu. 335 F.3d 970, 976 (9th Cir. 2003).
Warrantless searches “are per se unreasonable under the Fourth
Amendment—subject only to a few specifically established and well-delineated
exceptions.” Arizona v. Gant. 556 U.S. 332, 338 (2009) (quoting Katz v.
United States. 389 U.S. 347, 357 (1967)). “Among the exceptions to the
warrant requirement is a search incident to a lawful arrest.” IcL (citing Weeks
v. United States. 232 U.S. 383, 392 (1914)).

17

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 18 of 31 PagelD#:1700

a.

Talib

As an unrestrained passenger riding in the truck bed, Talib was in
violation of Vehicle Code § 23116(b). See SUF *[f 5. “Police officers may order
a suspect out of a car during a traffic stop.” United States v. Landeros. 913
F.3d 862, 870 (9th Cir. 2019). It is undisputed that Talib refused multiple
orders to exit the truck and show his left hand. See SUF

18-19, 25-26, 30,

33-35. On these facts, Defendants had probable cause to arrest Talib for
willfully resisting, delaying, or obstructing an officer in violation of California
Penal Code § 148(a)(1). His seizure was thus reasonable as a matter of law
under the Fourth Amendment.10 See Devenpeck. 543 U.S. at 152.
Because Talib’s arrest was lawful, the deputies’ search of Talib’s person
was thus valid as a search incident to arrest. See Gant. 556 U.S. at 338; United
States v. Williams. 846 F.3d 303, 312 (9th Cir. 2016) (as amended) (explaining
that search incident to arrest can “involve a relatively extensive exploration” of
the arrestee’s person and inside pockets of the arrestee’s clothing (quoting
United States v. Robinson. 414 U.S. 218, 227 (1973)). And although Talib
argues that “money, automobile, spiritual ornaments, images & fingerprints,
papers and effects” were unlawfully seized, Talib provides no factual support
for these claims. Furthermore, any claims based on the search or seizure of the
truck lack merit because Talib presents no facts suggesting he had a possessory
interest or reasonable expectation of privacy in the truck. See United States v.
Pulliam. 405 F.3d 782, 786 (9th Cir. 2005) (holding that passenger with no
possessory interest in car had “no reasonable expectation of privacy . . . that

10 Furthermore, Talib’s Fourth Amendment claims for illegal search and
seizure also appear barred by Heck v. Humphrey. 512 U.S. 477 (1994), due to
his conviction for violating Penal Code § 148(a)(1). See SUF 118.
18

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 19 of 31 Page ID #:1701

would permit [his] Fourth Amendment challenge to a search of the car”)
(citation omitted).
Finally, the undisputed facts do not support Talib’s excessive force
claim. The relevant inquiry is whether the deputies’ actions were objectively
reasonable considering the facts and circumstances. See Graham v. Connor.
490 U.S. 386, 394 (1989). Three factors to be considered when determining
reasonableness include “[1] the severity of the crime at issue, [2] whether the
suspect poses an immediate threat to the safety of the officers or others, and [3]
whether he is actively resisting arrest or attempting to evade arrest by flight.”
Id. at 396. The reasonableness of an officer’s actions “must be judged from the
perspective of a reasonable officer on the scene, rather than with the 20/20
vision of hindsight.” Id
Here, it is undisputed that the traffic stop was in high-crime area, that the
street was not well-illuminated, that Talib was moving in the camper as
Guerrero and Park pulled over the vehicle, and that deputies could not see
Talib’s left hand to determine if he had a weapon. See SUF

18-19, 25-26, 35.

Moreover, Talib refused multiple orders from various deputies to step out of
the vehicle and show his left hand, and continued to refuse these orders even
after being pepper sprayed. See id.

25-26, 30-35; Exh. 14 at 8:20-9:11. On

these facts, a reasonable officer would have believed that pepper spraying Talib
and pulling him out of the vehicle was necessary to neutralize the threat that
Talib posed to the deputies and effect his arrest for violation of § 148(a)(1).
Accordingly, the Court recommends granting summary judgment for
Defendants as to Talib’s Fourth Amendment claims,
b.

Reese

Defendants contend that Reese was detained rather than arrested when
he was ordered out of the vehicle, handcuffed, searched, and placed in a patrol
car. See Reese MSJ at 25. Although the Court is skeptical that a reasonable
19

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 20 of 31 PagelD#:1702

person in Reese’s situation would have felt free to leave, the Court need not
decide whether Reese was detained or arrested because no unreasonable search
or seizure occurred in any event.
Park and Guerrero saw Reese driving with an unrestrained passenger in
the truck bed in violation of Vehicle Code § 23116(a), giving them the
authority necessary to make an arrest. See Atwater v. City of Lago Vista. 532
U.S. 318, 354 (2001) (“If an officer has probable cause to believe that an
individual has committed even a very minor criminal offense in his presence,
he may, without violating the Fourth Amendment, arrest the offender.”). The
search of his person was thus valid as a search incident to arrest. Finally, Reese
presents no factual support for his claims that his property and effects were
unlawfully searched and seized.11
Accordingly, the Court recommends granting summary judgment to
Defendants as to Reese’s Fourth Amendment claims.
c.

Holmes

Defendants contend that they had probable cause to arrest Holmes as an
accomplice to the crime of driving a vehicle without the owner’s consent. See
Holmes MSJ at 18 (arguing that “the arrest of each of the occupants was
appropriate pending investigation into theft of the vehicle”), 25 (arguing that
because “it could not be determined that Plaintiff had the legal right to be in
the vehicle, arrest was appropriate pending the vehicle theft investigation”).

11 Because Reese was driving the track with apparent permission from
Holmes, Reese arguably had a possessory interest in the track at the time of its
seizure. See United States v. Thomas. 447 F.3d 1191, 1198 (9th Cir. 2006)
(holding that driver with permission to use friend’s vehicle and keys to ignition
and trank possessed legitimate expectation of privacy necessary to challenge
search). But as explained below, the impoundment of the track was lawful and
its search was therefore permissible as an inventory search. See Section
III.A.2.C infra.
20

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 21 of 31 PagelD#:1703

The Court cannot find that the undisputed facts support a conclusion that
Defendants had probable cause to arrest Holmes.
It is undisputed that Holmes refused to tell Guerrero her name. See SUF
43. Defendants argue that Holmes’s failure to cooperate prevented them from
confirming that she owned the truck. See Holmes MSJ at 24. But earlier in the
stop, Holmes stated unequivocally that she owned the truck as she told Park
that the truck was her “private, personal vehicle.” Holmes TAC at 31. Reese
also told the deputies that the truck belonged to her. See SUF 42. The context
of Guerrero’s questioning—an extended traffic stop in which Reese had been
handcuffed and placed in a patrol car and Talib had already been pepper
sprayed, dragged from the truck, and handcuffed—also bears mentioning.
Having seen these events, Holmes refused to answer North’s questions for fear
of worsening the situation, even when North clarified that she was only being
interviewed about the pepper spray incident and was not under investigation.
See Exh. 14-1 at 16-17. Given these circumstances, Holmes’s refusal to provide
her name to Guerrero did not demonstrate that a reasonably prudent person
would find a fair probability that Reese was driving the vehicle without the
owner’s permission. And even assuming otherwise, the deputies lacked any
evidence that Holmes was somehow an accomplice to this crime such that
probable cause existed to arrest her.
Because the record does not establish probable cause to arrest Holmes,
the subsequent search of her person cannot be justified as incident to a lawful
arrest. To the extent that Defendants argue that the search was a legitimate
pat-down for weapons during an investigative stop, Defendants fail to set forth
any “specific and articulable facts” showing that the deputies reasonably
believed that Holmes was armed and dangerous. I.E.V.. 705 F.3d at 435
(quoting Terry. 392 U.S. at 21); Holmes MSJ at 24-25. As such, the Court

21

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 22 of 31 Page ID #:1704

cannot conclude at this time that Holmes’s warrantless search was reasonable
under the Fourth Amendment.
Additionally, a genuine dispute of material fact exists as to whether
Defendants used excessive force in effecting Holmes’s arrest. Although
Defendants assert that Marchello arrived after Holmes was already under
arrest, Holmes claims that Marchello told her she was under arrest and that
Marchello and a male officer forcefully grabbed her arms, handcuffed her
tightly enough to cut off her circulation and cause lingering numbness, and
ignored her complaints that they were hurting her. See SUF U 54; Holmes TAC
at 35. Nothing in the record suggests that Holmes posed an immediate threat
to deputies at the time or was actively resisting arrest.12 Thus, a reasonable jury
could credit Holmes’s account and find that the amount of force used was
objectively unreasonable and violated Holmes’s Fourth Amendment rights.
See Graham. 490 U.S. at 394.
Holmes also claims that her vehicle was unlawfully seized. See
Opposition at 7. The impoundment of a vehicle may be warranted under the
community caretaking exception to the Fourth Amendment. See United States
v. Cervantes. 703 F.3d 1135, 1141 (9th Cir. 2012) (as amended). “Whether an
impoundment is warranted under this community caretaking doctrine depends
on the location of the vehicle and the police officers’ duty to prevent it from
creating a hazard to other drivers or being a target for vandalism or theft.”
Miranda v. City of Cornelius. 429 F.3d 858, 864 (9th Cir. 2005).
Here, the deputies had arrested the driver of the truck as well as Talib
and Davis and were bringing them to the police station for booking. See Exh. 6
at 5-7. Given that Holmes did not present her identification to deputies, let
12 Although the videotaped portion of Holmes’s search shows Holmes
verbally and physically resisting the deputies, Holmes had already been
handcuffed at this point. See Exh. 25 at 0:00, 0:07-14, 0:59-2:01.
22

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 23 of 31 Page ID #:1705

alone her name, the deputies could not determine whether she could have
driven the truck. The deputies were thus forced to consider whether to leave
the truck on a less-illuminated public roadway located in a high-crime area in
the middle of the night. See SUF

4, 17. Under the community caretaking

exception, it was not unreasonable for the deputies to impound the car.
Because the vehicle was lawfully impounded, the deputies were entitled
to conduct an inventory search. See Cervantes. 703 F.3d at 1141 (“Once a
vehicle has been legally impounded, the police may conduct an inventory
search, as long as it conforms to the standard procedures of the local police
department.”). Nothing in the record suggests that Park’s search of the truck
extended beyond the bounds of an inventory search, or violated any of
LASD’s standard procedures. Accordingly, the inventory search did not
violate Holmes’s constitutional rights. Holmes fails to present any other factual
support for her claims about the search and seizure of her property.
Therefore, summary judgment should be granted to Defendants as to
Holmes’s Fourth Amendment claims concerning the search and seizure of the
truck. However, Defendants have not established as a matter of law that
deputies had probable cause to arrest Holmes or search her incident to her
arrest. Finally, there are disputed issues of material fact as the Holmes’s
excessive force claim that preclude summary judgment.
B.

First Amendment Claims
Plaintiffs allege that Defendants’ conduct “deter[red], suppress[ed], or

breach[ed] freedom of speech” and that Defendants retaliated against them for
questioning the deputies about the lawfulness of their conduct. Talib TAC at
19, 26; Reese TAC at 20, 26; Holmes TAC at 19, 26.
To establish a First Amendment retaliation claim, “[a] plaintiff must
show that (1) he was engaged in a constitutionally protected activity, (2) the
defendant’s actions would chill a person of ordinary firmness from continuing
23

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 24 of 31 Page ID #:1706

to engage in the protected activity [,] and (3) the protected activity was a
substantial or motivating factor in the defendant’s conduct.” O’Brien v. Weltv.
818 F.3d 920, 932 (9th Cir. 2016) (citation omitted). The defendant’s
retaliatory animus must be a “but-for” cause of the plaintiffs subsequent
injury, such that “the adverse action against the plaintiff would not have been
taken absent the retaliatory motive.” Nieves v. Bartlett. 139 S. Ct. 1715, 1722
(2019). Plaintiffs do not need to show their “speech was actually inhibited or
suppressed.” Lacev v. Maricopa Ctv.. 693 F.3d 896, 916 (9th Cir. 2012)
(citation omitted). The intent to inhibit speech, an element of the claim, may
be demonstrated by direct or circumstantial evidence. See Mendocino Envtl.
Ctr. v. Mendocino Ctv.. 192 F.3d 1283, 1300-01 (9th Cir. 1999).
The existence of probable cause defeats a retaliatory arrest claim as a
matter of law except in circumstances “where officers have probable cause to
make arrests, but typically exercise their discretion not to do so.” Nieves. 139
S. Ct. at 1727. Thus, while a plaintiff asserting a retaliatory arrest claim
generally must plead and prove the absence of probable cause, this requirement
does not apply “when a plaintiff presents objective evidence that he was
arrested when otherwise similarly situated individuals not engaged in the same
sort of protected speech had not been.” Id. at 1724, 1727.
1.

Talib

As explained above, the deputies had probable cause to arrest Talib for
violation of California Penal Code § 148(a)(1). See Section III.A.2.a supra.
Moreover, Talib presents no evidence that similarly situated individuals were
permitted to willfully resist, delay, of obstruct a peace officer without arrest. As
such, the deputies’ probable cause to arrest Talib defeats his retaliatory arrest
claim as a matter of law. See Nieves. 139 S. Ct. at 1727.
To the extent that Talib claims that Defendants used excessive force
against him in retaliation for his protected speech, probable cause for his arrest
24

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 25 of 31 Page ID #:1707

would not bar such a claim. See Sew v. Barach. No. 17-13789, 2019 WL
3556706, at *11 (E.D. Mich. Aug. 5, 2019) (“While . . . probable cause to
arrest might matter in a retaliatory arrest claim, it does little to help rebut
[plaintiffs] claim that [officer] retaliated by using excessive force.” (citing
Nieves. 139 S. Ct. at 1724)). Nevertheless, Talib fails to establish that
Defendants would not have taken this adverse action against him absent their
retaliatory motive. See Nieves. 139 S. Ct. at 1722. Given that Talib refused
multiple orders to show his hand and exit the vehicle and that deputies could
not see if he was armed, a reasonable jury could not find that Talib’s speech
was the but-for cause of the deputies’ use of force against him.
Accordingly, the Court recommends granting summary judgment for
Defendants as to Talib’s First Amendment claims.
2,

Reese

As explained above, the deputies had probable cause to arrest Reese for
violation of Vehicle Code § 23116(a). See Section III.A.2.b supra. Reese
presents no evidence that similarly situated individuals committed this same
traffic violation without the possibility of arrest. Therefore, probable cause bars
Reese’s retaliatory arrest claim and the Court recommends granting summary
judgment for Defendants as to Reese’s First Amendment claims.
3.

Holmes

As explained above, the record does not support a finding that probable
cause existed to arrest Holmes. See Section III.A.2.C supra. Therefore,
Holmes’s retaliatory arrest claim may proceed.
Throughout the traffic stop, Holmes questioned the deputies’ authority
for their actions and asserted her constitutional rights. First, Holmes argued
with Park when he said that Talib needed to get out of the truck. See Exh. A,
CAM00253 at 3:21-27. After Park handcuffed Reese, Holmes asserted that she
did not consent to stepping out of the truck, disputed whether Park had
25

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 26 of 31 Page ID #:1708

probable cause, argued about the basis for the stop, and said that it would be
assault if Park touched them. See Holmes TAC at 30-32. Holmes also verbally
agreed with Talib’s assertions that the deputies’ conduct was illegal, that they
could obtain North’s videorecording of the incident, and that they would sue
the deputies. See Exh. 14-1 at 7-8. Finally, Holmes told the deputies that they
were threatening Talib by pointing guns at him and asserted Talib’s right to
protect himself. See id. at 8-9. The First Amendment protected Holmes’s right
to question the deputies in this manner. See City of Houston. Tex, v. Hill. 482
U.S. 451, 461 (1987) (“[T]he First Amendment protects a significant amount
of verbal criticism and challenge directed at police officers.”)
Defendants claim that Holmes’s arrest, which followed these statements,
was not in retaliation for her speech at the time of the stop. But when these
facts are viewed in the light most favorable to Holmes, a reasonable jury could
find that the deputies would not have arrested Holmes or used force in
effecting the arrest but for their retaliatory motivation to chill Holmes’s
protected speech. See Lacey, 693 F.3d at 917 (“[Pjroximity in time supports an
inference that the motive was unconstitutional retaliation^]” (citing Bruce v.
Ylst. 351 F.3d 1283, 1288-89 (9th Cir. 2003))). Accordingly, a triable issue of
fact remains as to Holmes’s First Amendment retaliation claims.
C.

Qualified Immunity
Defendants argue that they are entitled to summary judgment on each of

Plaintiffs’ claims on grounds of qualified immunity. See MSJs at 4. Qualified
immunity “protects government officials from liability for civil damages
insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would have known.”
Pearson v. Callahan. 555 U.S. 223, 231 (2009) (citation omitted). An officer
will be denied qualified immunity in a § 1983 action only if (1) taken in the
light most favorable to the party asserting injury, the facts alleged show that
26

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 27 of 31 PagelD#:1709

the officer’s conduct violated a constitutional right, and (2) the right violated
was “clearly established” at the time of the incident such that a reasonable
officer would have understood his conduct to be unlawful in that situation.
Torres v. City of Madera. 648 F.3d 1119, 1123 (9th Cir. 2011) (quoting Saucier
v. Katz. 533 U.S. 194, 201 (2001)). Courts may address these two inquiries in
any order. See Pearson. 555 U.S. at 236.
As explained above, no genuine issue of material fact remains as to
whether Defendants violated Talib’s and Reese’s constitutional rights, nor as
to whether Defendants violated Holmes’s Fourth Amendment rights through
seizing her truck. See Sections III.A.l and III.A.2.a-c supra. Accordingly, the
Court need not address the second prong of the qualified immunity analysis as
to these claims. But triable issues of fact do remain as to whether Defendants
violated Holmes’s First and Fourth Amendment rights through arresting her
without probable cause, unreasonably searching and seizing her person, using
excessive force to effect her arrest, and retaliating against Holmes for her
protected speech. The Court therefore considers whether these constitutional
rights were clearly established.
“A Government official’s conduct violates clearly established law when,
at the time of the challenged conduct, the contours of a right are sufficiently
clear that every reasonable official would have understood that what he is
doing violates that right.” Ashcroft v. al-Kidd. 563 U.S. 731, 741 (2011)
(citation omitted). The “clearly established” inquiry “must be undertaken in
light of the specific context of the case, not as a broad general proposition,”
Saucier. 533 U.S. at 201, and “turns on the objective legal reasonableness of
the action, assessed in light of the legal rules that were clearly established at the
time it was taken,” Pearson. 555 U.S. at 244 (citation omitted). “Qualified
immunity gives government officials breathing room to make reasonable but
mistaken judgments, and protects all but the plainly incompetent or those who
27

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 28 of 31 PagelD#:1710

knowingly violate the law.” Messerschmidt v. Millender. 565 U.S. 535, 546
(2012) (internal quotation marks omitted). “[A] case directly on point” is not
required to show the right in question was clearly established, “but existing
precedent must have placed the statutory or constitutional question beyond
debate.” al-Kidd. 131 S. Ct. at 2083 (citing Anderson. 483 U.S. at 640).
1.

Search and Seizure

In the context of an unlawful arrest, the second prong of the qualified
immunity analysis can be summarized as “whether it is reasonably arguable
that there was probable cause for arrest—that is, whether reasonable officers
could disagree as to the legality of the arrest such that the arresting officer is
entitled to qualified immunity.” Rosenbaum v. Washoe Ctv.. 663 F.3d 1071,
1076 (9th Cir. 2011).
Here, Holmes told Park that the truck belonged to her and Reese stated
that she owned the vehicle. See Holmes TAC at 31; SUF Tf 42. To be sure,
Holmes declined to provide her name to deputies, which would have allowed
them to confirm that she in fact owned the vehicle. See SUF 43. But no
reasonable officer could believe that this fact alone sufficed to establish
probable cause that Holmes was an accomplice with Reese in driving a vehicle
without the owner’s permission. At the time of the traffic stop, it was clearly
established that “without more,” an individual’s “refusal to cooperate” with an
officer’s request does not give rise to probable cause to arrest. Florida v.
Bostick. 501 U.S. 429, 437 (1991); see also Florida v. Rover. 460 U.S. 491,
487-87 (1983) (“The person approached [by law enforcement] . . . need not
answer any question put to him; indeed, he may decline to listen to the
questions at all and may go on his way. He may not be detained even
momentarily without reasonable, objective grounds for doing so; and his
refusal to listen or answer does not, without more, furnish those grounds.”)
(citations omitted). While officers are entitled to request identification of a
28

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 29 of 31 Page ID #:1711

detained suspect, see Hiibel v. Sixth Judicial Dist. Court of Nev.. Humboldt
Ctv.. 542 U.S. 177, 186 (2004), it is clearly established in the Ninth Circuit that
“failure to identify oneself cannot, on its own, justify an arrest.” Belav v. City
of Gardena. No. 15-08063, 2017 WL 1628398, at *4 (C.D. Cal. Apr. 27, 2017)
(quoting United States v. Christian. 356 F.3d 1103, 1106 (9th Cir. 2004)).
Thus, Defendants are not entitled to qualified immunity on this claim.
2.

Excessive Force

At the time of the traffic stop, it was “well-established that overly tight
handcuffing can constitute excessive force.” Wall v. County of Orange. 364
F.3d 1107, 1112 (9th Cir. 2004); see also Meredith v. Erath. 342 F.3d 1057,
1061 (9th Cir. 2003) (holding that placing and keeping plaintiff “in handcuffs
that were so tight that they caused her unnecessary pain violated her Fourth
Amendment right to be free from an unreasonable seizure.”); LaLonde v.
County of Riverside. 204 F.3d 947, 952-53, 960 (9th Cir. 2000) (reversing grant
of qualified immunity on excessive force claim where plaintiff complained that
handcuffs were cutting off his circulation, officers refused to loosen the cuffs
and left plaintiff in cuffs for 20 to 30 minutes, and plaintiff suffered ongoing
numbness in the wrists and hand as a result). Therefore, a reasonable officer in
these circumstances would have known that handcuffing Holmes extremely
tightly such that her circulation was cut off and ignoring her cries of pain
violated her Fourth Amendment rights. Accordingly, Defendants are not
entitled to summary judgment on this claim.
3.

Retaliation

With regard to Holmes’s First Amendment retaliation claim, a
reasonable officer would have known that arresting Holmes and using
excessive force to effect the arrest in retaliation for her protected speech
violated her First Amendment Rights. See Ford v. City of Yakima. 706 F.3d
1188, 1195 (9th Cir. 2013) (“Police officers have been on notice at least since
29

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 30 of 31 PagelD#:1712

1990 that it is unlawful to use their authority to retaliate against individuals for
their protected speech.”), abrogated on other grounds bv Nieves. 139 S. Ct. at
1724; Beck v. City of Upland. 527 F.3d 853, 871 (9th Cir. 2008) (“Arresting
someone in retaliation for their exercise of free speech rights was violative of
law clearly established at the time of [plaintiffs] arrest.”). Therefore,
Defendants are not entitled to qualified immunity on this claim.

D.

Participation of Kiguelman. Gilinets. andMarchello
Kiguelman and Gilinets assert that they are entitled to summary

judgment as they were not present at the scene at the time of the arrests. See
Holmes Reply at 10. Marchello also argues that she is entitled to summary
judgment because her search of Holmes was conducted lawfully. See id. at 11.
Officers “cannot be held liable for a constitutional violation under 42
U.S.C. § 1983 unless they were integral participants in the unlawful conduct.”
Keates v. Koile. 883 F.3d 1228, 1241 (9th Cir. 2018). An officer with “some
fundamental involvement in the conduct that allegedly caused the violation”
may be liable for integral participation even where his own actions do not
themselves rise to the level of a constitutional violation. Blankenhom v. City of
Orange. 485 F.3d 463, 481 n.12 (9th Cir. 2007). Additionally, while
“ [government officials may not be held liable for the unconstitutional conduct
of their subordinates under a theory of respondeat superior,” Ashcroft v. Iqbal.
556 U.S. 662, 676 (2009), supervisory liability may attach based on “the
supervisor’s knowledge of and acquiescence in unconstitutional conduct by his
or her subordinates,” Starr v. Baca. 652 F.3d 1202, 1207 (9th Cir. 2011).
It is undisputed that Kiguelman was not present at the traffic stop and
that Gilinets arrived after Holmes had been arrested. See SUF

64, 95.

Although Holmes argues that both defendants were “supervising officers” who
“should have stopped [their subordinates] from any furtherance of’ the alleged
constitutional violations, Opposition at 8, she presents no evidence that any
30

Case 2:15-cv-03825-JAK-DFM Document 99 Filed 10/17/19 Page 31 of 31 PagelD#:1713

officer consulted with either defendant before arresting or searching her, or that
either defendant knowingly acquiesced to the alleged violations such that
supervisory liability would be appropriate. Thus, Holmes’s allegations do not
establish that either Kiguelman or Gilinets was an integral participant in the
challenged conduct, and both defendants are entitled to summary judgment.
In contrast, a genuine issue of material fact remains as to whether
Marchello arrived on the scene before Holmes’s arrest. See SUF ^ 54; Holmes
TAC at 35. Holmes also alleges that Marchello used excessive force to place
her under arrest. See TAC at 35. Finally, Marchello conducted a warrantless
search of Holmes which was presumptively unreasonable under the Fourth
Amendment, and the evidence does not support a finding of probable cause to
arrest that would justify the search. See SUF *[{ 56; see Section III.A.2.c supra.
Accordingly, Marchello was an integral participant in the challenged conduct,
and she is not entitled to summary judgment on this basis.
IV.

CONCLUSION

IT IS THEREFORE RECOMMENDED that the District Judge issue
an Order: (1) accepting this Report and Recommendation; (2) granting
summary judgment for Defendants as to Talib’s and Reese’s claims; (3)
granting summary judgment for Kiguelman and Gilinets as to Holmes’s
claims; (4) granting summary judgment for Defendants as to Holmes’s Fourth
Amendment claims for unreasonable search and seizure of her property and
effects; (5) denying Defendants’ Motion for Summary Judgment as to
Holmes’s remaining claims; and (6) dismissing the Talib (Case No. CV 1503825) and Reese (Case No. CV 15-03833) matters with prejudice.

£

Date: October 17, 2019

DOUGLAS F. McCORMICK
United States Magistrate Judge

31

